U.S. Department of the Interior
Office of Inspector General




         SURVEY REPORT


     BACKGROUND INVESTIGATIONS
       FOR ALBUQUERQUE AREA
        EDUCATION EMPLOYEES,
      BUREAU OF INDIAN AFFAIRS

            REPORT NO. 99-I-143
             DECEMBER 1998
                                                                                 C-IN-BIA-002-98-R


                United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                         Washington, DC. 20240

                                                                      DEC 22 1998


                                    SURVEY REPORT

Memorandum

To:        Assistant Secretary for Indian Affairs

From:      Robert J.
           Assistant

Subject: Survey Report on Background Investigations for Albuquerque Area Education
         Employees, Bureau of Indian Affairs (No. 99-I-143)

                                     IIXTRODUCTION
This report presents the results of our survey of background investigations for Albuquerque
Area education employees performed by the Bureau of Indian Affairs. The objective of the
survey was to determine whether the Bureau performed, in accordance with applicable laws,
regulations, and policies, background investigations and suitability determinations’ for
education employees who work in Bureau-operated schools. The audit was conducted in
response to a request from you, as the Assistant Secretary for Indian AfTairs.

B.ACKGROUND

The legislative requirements for background investigations for education employees are
contained in the Indian Child Protection and Family Violence Prevention Act (Public
Law 101-630, dated November 28, 1990) and the Crime Control .4ct of 1990 (Public
Law 101-647, dated November 29, 1990). In general, the Acts require that all employees
who have regular contact with children receive background investigations. The Code of
Federal Reguiations (25 CFR 63) establishes minimum standards of character “to ensure that
individuals having regular contact with or control over Indian children have not been
convicted of certain types of crimes or acted in a manner that placed others at risk or raised
questions about their trustworthiness.” In addition, the Code of Federal Regulations
(5 CFR 736) requires that personnel background investigations be initiated within 14 days of



‘An employee suitability determination (adjudication) consists of determining whether an employee has met
the required background investigation standards.
placement (hire date) for all noncritical sensitive positions.’ In that regard, the Bureau has
designated as noncritical sensitive positions all education employee positions within the Office
of Indian Education Programs. Further, administrative instructions for personnel officers to
keep security officers informed of all relevant personnel actions are contained in the
Department of the Interior Manual (441 DM 3.3C), and instructions for employee selecting
officials to conduct and document reference checks and obtain information on any previous
background investigations are contained in the Bureau of Indian Affairs Manual
(62 BIAM 1 l), dated April 6, 1990, and updated on November 7, 1996.

The Bureau’s background investigation process begins after an applicant is conditionally
selected for employment. First, the employing school or related agency office provides the
applicants with the background investigation forms’ and instructs the applicants to return the
forms on or prior to the date of hire. Prior to April 28, 1998, the school or agency sent the
forms to the Area Security Officer for the Officer’s determination that the forms were
complete. The Security Officer reviewed and updated incomplete forms by contacting the
appropriate employing school and sent the forms to the Office of Personnel Management. On
April 28, 1998, the Bureau changed its process and made the school or agency responsible
for submitting the forms to the Office of Personnel hlanagement, which conducts the
background investigations and sends the results to the Area Security Officer.

To comply with the background investigation requirements for Bureau employees, the Bureau
has five Security Officers (one Central Office Security Officer in Washington, D.C., and an
Area Security Officer in Albuquerque, New Mexico; Aberdeen, South Dakota; Billings,
Montana; and Phoenix, Arizona). The four Area Security Officers report to the Central
Office Security Officer. For positions requiring investigations, the Area Security Officers are
responsible for initiating education employee background investigations and adjudicating the
investigation results received from the Office of Personnel Management.

During 1997, the OffIce of Indian Education Programs employed approximately
5,165 employees in 82 Bureau-operated elementary and secondary schools and 5 peripheral
dormitories for students who attend public schools. The Albuquerque Area Security Office
is responsible for providin,0 oversight of and coordination for background investigations
related to 329 education employees at 2 agency of&es and 10 Bureau-operated elementary
schools that have a total student enrollment of 1,882.




IThe Federal Personnel Manual. Subchapter 2, ldentlfies four sensitivity levels for designating positions for
securio -related positions: nonsensitive. noncritical-sensitive. critical-sensitive. and special-sensitive. The
subchapter states that noncritical-scnsitiw includes positions that invoh.e one of the following: “access to
Secret or C’o~~J~det~finl mational securiu materials. information. etc.. - Duties that may directly or indirectly
adTersely affect the overall operations of the agency: - Duties that demand a high degree of confidence and
trust.”

‘All education employees are required by the Offke of Personnel Management to complete a “Questionnaire
for Public Trust Position” (SF-IUP), a “Supplemental Questionnaire for Selected Positions” (SF-85P-S). and
a “Fingerprint Chart” (SF-87).

                                                       2
SCOPE OF SURVEY

Our survey was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. To accomplish our objective, we (1) obtained and reviewed applicable criteria
related to initiating, processing, and adjudicating background investigations; (2) reviewed and
discussed Area Security Office background investigation operating procedures with Bureau
officials; and (3) selected and reviewed ajudgmental sample ofeducation employees’ security
and personnel files

We selected our sample from the 329 education employees for the Albuquerque Area OfIice
listed in the Bureau’s payroll system at March 16, 1998. The payroll system indicated that
of the 329 education employees, investigations had been completed for 264 employees and
had not been completed for 65 employees. Of the 329 employees, we judgmentally selected
66 employees (20 percent) for review, of which 29 employees were recorded as having
completed investigations and 37 employees were recorded as not having completed
investigations. The scope of our review did not include the procedures used by the Office of
Personnel Management to perform background investigations.

As part of our survey, we reviewed the Departmental Report on Accountability for fiscal year
 I996 and the Bureau’s annual assurance statement on management controls for fiscal year
1997, both ofwhich contain information required by the Federal Managers’ Financial Integrity
Act. We determined that neither report disclosed any internal control weaknesses related to
the objective of this survey. We also evaluated the Albuquerque Area’s system of internal
controls related to the education employee background investigation process to the extent we
considered necessary to accomplish the objective. The internal control weaknesses identified
are discussed in the Results of Survey section of this report. Our recommendations, if
implemented, should improve the internal controls in the areas identified.

Our survey was performed from March 16 to April 9, 1998, and included visits to the
Bureau’s Albuquerque Area Security Office, Office of Indian Education Programs Personnel
Office, and Southern Pueblos Agency Education Ofice, all in Albuquerque. In addition, we
visited the Bureau-operated elementary schools in Isleta Pueblo and San Felipe Pueblo, New
Mexico.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the Office of Inspector General nor the General Accounting
Office has performed any audits that addressed Bureau ofIndian Affairs education employees’
background investigations and suitability determinations. However, on June 27, 1997, the
Otfice of Personnel Management issued the report “Appraisal of the Personnel
Security/Suitability Programs of the Bureau of Indian AfTairs Central Office East/West. ” The
report stated that personnel security and suitability programs in the Bureau’s Central Office
needed to be improved. Specifically, the report stated that 19 (22 percent) of 87 personnel
files reviewed had no indication that a background investigation had been performed. The

                                              3
report made recommendations to improve procedures for ensuring that background
investigations are initiated timely on all employees. In its October 23, 1997, response to the
report, the Bureau stated that (1) the individuals identified as not having had a background
investigation had been provided the necessary forms and that background investigations were
being scheduled with the Office of Personnel Management and (2) the Bureau had initiated
“a 100 percent review” of the official personnel files for the Central Ofice East/West to
determine whether additional corrective actions were warranted. In its October 27, 1998,
response (Appendix 1) to the draft of this report, the Bureau stated that all 19 of the
individuals identified as not having had a background investigation were Bureau employees
but did not work for the Of&e of Indian Education Programs. The Bureau f%rther stated that
as of October 15, 1998, the status ofthe background investigations for the 19 employees was
as follows: nine employee investigations had been completed, nine employee investigations
were ongoing pending correction of security forms, and one investigation was no longer
necessary because the employee no longer worked for the Bureau.

In addition, on October 24, 1997, the Acting Personnel Officer, Office of Indian Education
Programs, provided the Director with a report on the status of education employees’
background investigations as listed in the payroll system. The report stated that background
investigations had not been completed for 1,495 (29 percent) of the Bureau’s 5,165 school
employees. The Acting Personnel OfGcer recommended that background investigation forms
be included with the appointment documents sent to the Office of Indian Education Programs
Personnel Office to ensure that the forms are completed by the employee when the employee
is hired The report did not require a response. and at the time of our review, the Acting
Personnel Officer said that no action had been taken on the report’s recommendation.

In its response to the draft of this report, the Bureau stated:

       More than half of the 1,495 employees, however, had been investigated and
       determined suitable under E.O. [Executive Order] 10450 standards which are
       the same standards as in Pub. L. [Public La\\-] 101-630. Most of these
       background investigations were conducted in the late 1970’s or early 1980’s.
       The OPM’s [Office of Personnel Management] SII [Security Investigative
       Index] data base only maintains information on investigations conducted
       within the past 15 years. Therefore, an SII check ofthe OPM files will denote
       a “No Record” for investigations completed prior to 1983.

The Bureau further stated:

        To determine an accurate universe, the Bureau security specialists conducted
        a thorough review of all OIEP [Office of Indian Education Programs]
        employees using a July 20, 1998, payroll listing, the employees’ Official
        Personnel Folders, and OPM’s SII data base. Based on this review the
        Bureau determined that 836 current OIEP employees required investigations.
        Of that number, 26 were employed at the Albuquerque Area.




                                               4
                                 RESULTS OF SURVEY
The Albuquerque Area Security O&e did not timely initiate and properly complete all
background investigations for new and existing education employees. Specifically, we found
that the Area Security Office had not initiated background investigations for 37 (56 percent)
of the 66 employees in our sample and had not submitted to the Office of Personnel
Management background investigation forms in a timely manner for 14 (48 percent) of the
29 remaining employees. However, the completed background investigations received from
the Office of Personnel Management generally were reviewed and adjudicated in a timely
manner by the Area Security Officer and evidenced in the personnel files as completed and
approved. The Indian Child Protection and Family Violence Prevention Act, the Crime
Control Act, and the Code of Federal Regulations contain the requirements for performing
and completing background investigations. However, the Bureau did not have effective
processes, including written procedures, to identity all employees needing background
investigations and to obtain the information necessary for the proper and timely completion
of background investigations and security clearances. As a result, the Bureau could not be
assured that the 37 individuals who were employed without the requisite background
investigations at two agency offices and seven Bureau-operated schools that had a total
student enrollment of 1,660 were suitable for employment’ at these facilities. In related
matters, we found that employee fingerprint verifications to identity individuals with
unsuitable backgrounds were not always completed, required preemployment reference
checks were not always documented in the personnel tiles as having been completed and
approved, and employee suitability determinations Lvere made based on incomplete
information.

Initiating Background Investigations

Section 408 of the Indian Child Protection and Family Violence Prevention Act, dated
November 28, 1990, requires that background investigations be performed for employees
who have regular contact or control over Indian children. In addition, Section 23 1 of the
Crime Control Act of 1990, dated November 29, 1990, requires that all existing employees
involved in child care services, including education employees, receive background
investigations no later than May 29, 199 1. Also, the Departmental Manual (441 DM 3.3C)
states that personnel officers are responsible for ensuring that security officers are
immediately notified of all relevant personnel actions, including (1) changes in program or
position placement (sensitivity levels) which require additional investigation and
(2) reassignments, details, transfers, or terminations for all sensitive positions and for
positions such as education employee positions which require security clearances. However,
we found that the Bureau did not have written procedures for transmitting the necessary
information, including relevant personnel actions, to the Area Security Officer. Instead, the
Bureau relied on the employing school or agency to inform the Security OfIicer of employees
who needed background investigations. However, the schools and agencies did not always


4Tlle Personnel Office for the Office of Indian Education Programs indicated, on May 7, 1998. that for these
37 indkiduals, there vwe no reported incidents of child abuse or molestation.

                                                     5
identify employees who did not have completed background investigations, obtain the
required background investigation forms from the employees, or submit the background
investigation forms to the Area Security Ofice.

Based on our review of the security and personnel files for the 66 employees, we found that
background investigations had not been initiated for 9 (29 percent) of 3 1 employees hired
before the Crime Control Act was enacted on November 29, 1990, and for 28 (80 percent)
of 35 employees who were hired on or after that date. Examples of the absence of initiation
of background investigations are as follows:

        - On August 18, 199 1, the Bureau hired an elementary school teacher and then rehired
the teacher on August 15, 1994, after a 2-year voluntary absence. However, background
investigation forms were not obtained from the employee until June 29, 1996, approximately
5 years after the teacher was initially hired. On September 20, 1996, the Area Security OffLze
returned the forms to the employee because they were incomplete. As of March 16, 1998,
no action had been taken by the Area Security Office to obtain completed forms from the
employee so that an investigation could be initiated.

         - On October 3 1, 1994, the Bureau hired a substitute elementary school teacher who
was converted, on November 27, 1995, to fUlLtime teacher status. However, a background
investigation was not requested from the Office ofpersonnel Management until April 2, 1997,
approximately 2 l/2 years after the teacher was initially hired. On April 25, 1997, the Office
of Personnel Management returned the background investigation forms to the Area Security
Ofice because they were incomplete. .4s of hlarch 16, 1998: the Area Security Office had
not taken action to obtain the revised forms from the employee so that an investigation could
be initiated.

       - On September 15, 1989, the Bureau hired an elementary school bus driver.
However, as of hlarch 16, 1998, the employee had not received a background investigation,
and the Area Security Office did not have documentation showing whether the required
background investigation forms had been submitted by the employee.

        - On August 26, 1991, the Bureau hired an elementary school teacher who had
completed the background investigation forms on June 28, 199 1. The employee’s completed
forms disclosed a 1976 police record for an alcohol/drug-related offense. However, as of
$Iarch 16, 1998, approximately 6 l/2 years after the teacher was hired, the Area Security
Office had not initiated a background investigation.

Based on these examples, we believe that the Bureau should improve controls over the
initiation ofbackground investigations to ensure that all employees who have regular contact
with children receive background investigations.

Submitting Background Investigation Forms

The Crime Control Act, Section 23 1, requires that all existing and newly hired employees
involved in child care services, including education employees, receive a background

                                              6
investigation, with all existing employees receiving background investigations no later than
May 29, 1991. In addition, the Code of Federal Regulations (5 CFR, 736) requires personnel
background investigations to be initiated within 14 days of placement (hire date) for all
noncritical sensitive positions. Further, the Albuquerque Area Security Officer position
description includes a requirement that procedures should be developed, in cooperation with
the Offtce of Indian Education Programs Personnel Officer, for the administration of the
Security Program covering education employees throughout the Albuquerque Area.
However, we found a lack of coordination between the Area Security Office and the
Personnel Office in the development and implementation ofthe Security Program’s operating
procedures For example, schools and agencies did not always require employees to submit
the background investigation forms in a timely manner, and the Area Security Office did not
monitor and follow up on background investigation forms that were returned to employees
for completion.

Based on our review of security and personnel tiles for 29 employees whose background
investigations had been completed or initiated, we found that the required background
investigation forms for 14 (48 percent) of the 29 employees had not been submitted timely
by the Area Security Office to the Office ofPersonnel Management. Specifically, background
investigation forms for 10 employees hired after the November 29, 1990, enactment date of
the Crime Control Act were submitted an average of 141 days after the date of hire rather
than within the 14 days required by the Code of Federal Regulations (5 CFR 736) and that
4 employees hired before November 29, 1990, were not submitted in accordance with the
Act’s deadline for submission of May 29. 199 1. For example:

         - On August 7, 1983, the Bureau hired an elementary school teacher. However, it was
not until January 3 1, 1996, that the employee submitted the background investigation forms
to the Area Security Office, which returned the forms to the employee because they were
incomplete. The employee revised and resubmitted the forms on September 4, 1996, and
again on March 24, 1997 .As a result, the forms were not submitted by the Area Securitv
Otlice to the Ofhce of Personnel hlanagement until April 2, 1997, 6 years after the Act‘s due
date for submission.

       - On September 5, 1995, the Bureau hired an elementary school teacher. However,
the employee did not provide the completed forms to the Area Security Office until March 24,
 1997. As a result, the forms were not submitted by the Area Security Office to the Office of
Personnel Management until April 2, 1997, approximately 1 l/2 years after the teacher \vas
hired.

On April 28, 1998, the Bureau took action to improve its controls over the security program
by issuing new operating procedures that primarily addressed employee position sensitivity
designations and the appointment of employees to positions requiring background
investigations If implemented, these pi-ocedures should improve the designation ofposition
sensitivity levels. The procedures also made the employing agency or the school rather than
the Area Security Officer responsible for submitting background investigation forms to the
Oflice of Personnel Management. While this change should improve the timeliness of the
submissions, the procedures do not provide assurance that all forms will be obtained or

                                              7
independent verification that the form has been properly completed before it is sent to the
Office of Personnel Management. Area Security Ofticers were previously responsible for
these functions. In addition, the procedures do not address the completion of background
investigations for individuals who are employed.

Verifying Employee Fingerprints

Section 23 1 of the Crime Control Act of 1990 requires that a set of the employee’s
fingerprints be submitted as part of a criminal history check to be conducted through the
Identification Division of the Federal Bureau of Investigation for each background
investigation. In addition, the Bureau’s Central Office Security Officer stated that when
fingerprint verification charts are unreadable and unciassifiable by the Federal Bureau of
Investigation, a second fingerprint verification chart should be submitted to the Office of
Personnel Management, along with a copy of the initial Case Closing Transmittal (the
Transmittal informs the Area Security Office that a second fingerprint verification chart can
be submitted within 1 year of the Case Closing Transmittal date). However, we found that
fingerprint verification charts for 4 ( 18 percent) of 22 completed investigations in our sample
were returned to the Office of Personnel Management by the Federal Bureau of Investigation
as unreadable and unclassifiable.

The Albuquerque Area Security Otficer stated that the Bureau had not established a uniform
policy relating to the processing ofunreadable and unclassifiable fingerprint verifications and
that it was not the Security Officer’s policy to obtain a second set of fingerprints if the
alphabetical name search conducted by the Federal Bureau of Investigation showed a negative
response or found no record. As a result, we determined that the Area Security Oflice
approved the background investigations for the four education employees for whom the
fingerprint verification process had not been completed.

Checking Preemployment References

The Bureau of Indian ARairs hlanual(62 BlAlZl I 1) requires (1) employee selecting officials
to conduct telephone reference checks with at least three prior employers and three personal
references before making a selection. (2) the Office of Indian Education Programs Personnel
Office to ensure that the selecting official has made and documented the necessary
preemployment reference checks and has contacted the Office of Personnel Management to
determine whether any previous background investigations have been performed, and
(3) applications without proper documentation to be returned to the selecting official with no
action taken. However, \ve found that the Personnel Office, Office of Indian Education
Programs, did not always ensure that an applicant’s preemployment references, including
prior employers and personal references, were checked and documented by the selecting
officials before the selected applicants were hired.

Our review of employee personnel tiles for 3 5 education employees hired after April 6, 1990,
disclosed that 17 files (49 percent) did not have documentation that the preemployment
references had been checked. For example:


                                               8
       - The personnel file for a school janitor hired on August 9, 1992, contained no
evidence that any preemployment reference check had been completed. The education
employee had not received a background investigation as of March 16, 1998.

        - The personnel file for an elementary school teacher hired on October I, 1995, did
not include any evidence that a preemployment check of personal references had been
completed. We also determined that the education employee had not received a background
investigation as of March 16, 1998.

The Bureau needs to use all the measures required, including preemployment reference
checks, to help ensure that employees who have regular contact with children are qualified.

Determining Suitability

We found that the Area Security Officer did not have procedures for determining whether the
results of a background investigation provided sufficient information on which to base a
suitability determination. Although we identified only 1 determination in our review of
22 suitability determinations that we believe was based on insufficient responses from the
Office of Personnel Management, we are reporting this matter because of the sensitivity of
the issue. We found that the Area Security Officer, because no pJOCedUJeS were established,
made employee suitability determinations based on the information provided by the O&e of
Personnel Management, even ifthe information was incomplete. For example, in the instance
we noted, the Case Closing Transmittal concerning the background investigation for a special
education teacher indicated that the Office of Personnel Management was unable to verify
both of the two prior employer references and two of the three personal references and that
all four local law enforcement agencies either had not been contacted or had not responded
to the Office of Personnel Management’s request for a check of criminal history. Although
the information provided in the Office of Personnel Management’s Case Closing Transmittal
was not complete, the Area Security Officer, on November 25, 1997, made a favorable
suitability determination for the employee. However, there \vas no written justification for
the determination because there are no standards requiring security officers to document the
basis for favorable suitability determinations.

Recommendations

We recommend that the Assistant Secretary for Indian Affairs:

        1. Direct the Central Office Security Officer to establish policies and procedures to
ensure that education employees who have not received completed background investigations
are identified and that all background investigation forms are obtained, properly completed,
and submitted to the Office of Personnel Management.

        2. Direct the Central Office Security Officer to establish policies and procedures to
ensure that the Albuquerque Area Security Office is notified by the Office ofIndian Education
Programs Personnel Office ofall relevant personnel actions, that requirements for compliance
with fingerprint verification have been complied with, and that a clear definition has been

                                              9
developed as to the quantity and type of information needed to determine an employee’s
suitability for employment.

       3, Direct the Personnel Officer, Office of Indian Education Programs, to ensure that
preemployment reference checks are completed timely and documented appropriately in
accordance with the Bureau Manual.

Assistant Secretary for Indian Affairs Response and Office of Inspector
General Reply

In the October 27, 1998, response (Appendix 1) to the draft report, the Assistant Secretary
for Indian Affairs concurred with Recommendations 1,2, and 3. Based on the response, we
consider Recommendation 1 resolved but not implemented and Recommendations 2 and 3
resolved and implemented. Accordingly, Recommendation 1 will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of implementation (see
Appendix 2).

Additional Comments on Audit Report

In its response, the Bureau provided additional information on the Prior Audit Coverage
section of the draft report regarding the June 27, 1997, Office of Personnel Management
report “Appraisal of the Personnel Security/Suitability Programs of the Bureau of Indian
Affairs Central Office East/West” and the October 24, 1997, report from the Office of Indian
Education Programs’ Acting Personnel Officer to the Director pertaining to the status of
education employees’ background investigations as listed in the payroll system. Accordingly,
we have revised the Prior Audit Coverage section of this report to incorporate the Bureau’s
comments as appropriate.

The legislation. as amended, creating the Office of Inspector requires semiannual reporting
to the Congress on all audit reports issued, the monetary impact of audit findings, actions
taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

Since the report’s recommendations are considered resolved, no fmther response to the Office
of Inspector General is required (see Appendix 2).

We appreciate the assistance of Bureau personnel in the conduct of our survey.




                                             10
                                                                                    APPENDIX 1
                                                                                     Page 1 of4

                 United States Department of the Interior
                                    OFFICE OF THE SECRETARY
                                        Washington, D.C. 20240

                                         (JCT   2 7 tm
Memorandum

To:       Assistant Inspector General for Audits

From:     Assistant Secretary - Indian Afkirs

Subject: Draft Survey Report on Background Investigations for Albuquerque Area Education
         Employees, Bureau of Indian Affairs (C-IN-BIA-002-98-R)

Shortly after my appointment as Assistant Secretary, concerns were raised about the adequacy of the
Bureau of Indian Affairs compliance with the requirements to conduct background investigations of
employees occupying sensitive positions, particularly for those employees of the Office of Indian
Education Programs (OIEP) who work with children. To determine the scope of the problem, I
requested the OfTice of the Inspector General to conduct a review and appreciate your timely
response. While the review was underway, the Bureau initiated a number of actions to improve the
operation of the background investigations program which are discussed in the body of this response.

Background

Since 1992, Bureau security specialists have adjudicated 6,000 background investigations for 7,200
employees occupying sensitive and public trust positions in education and non-education programs.
The 7,200 employees include 5,100 teachers, administrators, and support staff employed by the
OlEP, all ofwhich require background investigations as mandated by Pub. L. 101-630, Indian Child
Protection and Family Violence Prevention Act, and Pub. L. 101-647, Crime Control Act. Further,
OIEP experiences an annual employee turnover of approximately 1,000 employees, which increases
the background investigations workload.

Seven Bureau security specialists are responsible for the review and adjudication of all sensitive and
public trust background investigations for all Bureau employees, as mandated by Executive Order
10450, Security Requirements for Government Employees, and Executive Order 12968, Access to
Classified Information. Bureau personnel officers are responsible for the review and adjudication of
non-sensitive positions, e.g., clerk typists, engineers, foresters. Because Pub. L. 101-630 requires
the Bureau to investigate the character of all employees whose duties and responsibilities involve
regular contact with or control over Indian children, all 5,100 positions within OIEP are designated
as sensitive and public trust.




                                                 11
                                                                                      APPENDIX 1
                                                                                       Page 2 of 4


Prior Audit Coverage

The draft audit report provided information regarding the results of the June 1997 Office of Personnel
Management (OPM) report entitled “Appraisal of the Personnel Security/Suitability Programs of the
Bureau of Indian mairs Central Office EastNest.” The OPM report addressed both sensitive and
non-sensitive positions in the Bureau’s non-education programs. The report stated that 22 percent
or 19 of the personnel files reviewed had no indication that a background investigation had been
performed. None of the I9 employees identified in the OPM report were OIEP employees. AU 19
occupied non-sensitive positions for which Bureau personnel officers are responsible. As of
October 15, 1998, one of the 19 employees has separated; investigations have been completed for
nine; and closure for the remaining nine employees is pending correction of the security forms.

The dra.tI audit report also indicated that background investigations had not been completed for 1,495
(29 percent) of the OIEP’s employees. This list was based on the status of the education employees
background investigations as noted in the payroll system which was cross-referenced with the OPM’s
Security Investigative Index (SII) todetermine whether a background investigation was completed
for the employee. More than half of the 1,495 employees, however, had been investigated and
determined suitable under E.O. 10450 standards which are the same standards as in Pub. L. 101-630.
Most of these background investigations were conducted in the late 1970’s or early 1980’s. The
OPM’s SIT data base only maintains information on investigations conducted within the past 15 years.
Therefore, an HI check of the OPM files will denote a “No Record” for investigations completed
prior to 1983.

To determine an accurate universe:the Bureau security specialists conducted a thorough review of
all OIEP employees using a July 20, 1998, payroll listing, the employees’ Official Personnel Folders,
and OPM’s SIJ data base. Based on this review the Bureau determined that 836 current OIEP
employees required investigations. Ofthat number, 26 were employed at the Albuquerque Area. Au
of these employees have subsequently submitted an SF 85P, Questionnaire for Public Trust Positions,
an SF 85PS, Supplemental Questions, an SF 87, Fingerprint Card, OF 612, Application for
Employment or a resume, and OF 306, Declaration for Federal Employment. The completed security
packages have been submitted to OPM for investigation.

Recommendations

The draft audit report recommended that the Assistant Secretary - Indian Affairs:

Recommendation 1, Direct the Central Ofice Security Off&r to establish policies and procedures
to ensure that education employees who have not received completed background investigations are
identified and that all background investigation forms are obtained, properly completed, and
submitted to the Ofice of Personnel Management.

Bureau Response The Bureau concurs. The Deputy Commissioner of Indian Affairs centralized the
background investigations function under the Director, Office of Tribal Services, on February 15,


                                                 2
                                                 12
                                                                                      APPENDIX 1
                                                                                       Page 3 of 4


1998. On April 28, 1998, Standard Operating Procedures were issued by the DeputyCommissioner
and Director, OIEP, that established standard operating procedures for placement in sensitive and
public trust positions. As indicated above, completed packages for a!! OIEP employees in the
Albuquerque Area that required a background investigation have been submitted to OPM.

To ensure that all forms receive an independent verification of completion prior to submission to
OPM, the Bureau will revise its Standard Operating Procedures to make the security specia!ists
responsible for scheduling background investigations with OPM. The Standard Operating Procedures
wi!] be amended by December 15, 1998. In addition, a Handbook with detailed information and
procedures is being developed and will be completed by April 30, 1999. The responsible officialfor
implementation of the recommendation is the Director, Office of Tribal Services.

Recommendation Direct the Central Oflice Security Officer to establish policies and procedures
to ensure that the Albuquerque Area Security Ofice is notified by the Oflice of Indian Education
Personnel Office of a!! relevant personnel actions, that requirements for compliance with fingerprint
verification have been complied with, and that a clear definition has been developed as to the quantity
and type of information needed to determine an employee’s suitability for employment.

Bureau Rs The Bureau concurs. The Bureau security specialists have beengiven nationwide
access to the Pay/Pers System. Access enables a!! security specialists to track new hires,
reas+nrnents, transfers, and separations. In addition, Area security specialists have begun encoding
investigation data into the Pay/Pers System. The Standard Operating Procedures already require
Area and OIEP personnel officers to notify the appropriate security specialist/of%cer of a!! actions.
Access to the Pay/Pers System will permit verification by the security specialist.

Regarding fingerprint verification, the,area security specialist, upon notice from the Federa! Bureau
of Investigations (FBI) that a print is unclassifiable, will reissue a fingerprint chart (Standard
Form 87) lo the employee and instruct the employee to contact the local law enforcement agency
(tribal, Bureau or state) or the FBI for areprint. The employee will be instructed to return the reprint
within 10 working days.

Regarding the quantity and type of information needed to determine an individual’s suitability for
employment, Bureau security specialists apply OPM’s procedures and standards to determine
suitability for employment as outlined in Title 5 of the Code of Federal Regulations, Part 73 1,
Suitability, Subpart B - Suitability Determinations; Pub. L. 101-630; and Pub. L. 101-647. However,
OPM oAen closes cases as meeting its requirements despite pending items, such as unchecked
personal references and prior employment histories. Previously, the Bureau had been adjudicating
these. cases based on OPM’s closure. However, with the revised procedures, the security specialists
till ensure there are no disqualifying factors by recontacting andverifjling employment and personal
references and reviewing law enforcement records checks. In addition, the revised procedures will
contain guidance on documenting favorable as we!! as unfavorable determinations.




                                                  3

                                                  13
                                                                                     APPENDIX 1
                                                                                      Page 4 of 4


The target date for the revised procedures and the official responsible for implementation are
December 15, 1998, and the Director, Ofice of Tribal Services, respectively.

Recommend&on 3, Direct the Personnel Officer, Office of Indian Education Programs, to ensure
that preemployment reference checks are completed timely and documented appropriately in
accordance with the Bureau Manual.

Bureau Besps The Bureau concurs. To ensure reference checks are conducted, each security
specialist will verify, that appointing ofiicials have conducted the required pre-employment screening.
Quarterly, each security specialist will randomly select pre-employment screening forms completed
by the appointing official and recontact the named references to confirm each was interviewed by a
Bureau representative. We consider this recommendation resolved and implemented.




                                                 4
                                                 14
                                                                  APPENDIX 2



      STATUS OF SURVEY REPORT RECOMMENDATIONS


    Finding/
Recommendation
   Reference            Status                  Action Required

       1         Resolved; not   No fkther response to the O&e of Inspector
                 implemented.    General is required. The recommendation
                                 will be referred to the Assistant Secretary for
                                 Policy, Management and Budget for tracking
                                 of implementation.

    2 and 3      Implemented.    No further action is required




                                 15
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U . S. Department of the Interior                       Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 2359221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                         (67 1) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 l-800-424-5081
 TDD l-800-354-0996

FRKommerciai Numbers:
 (202) 208-5300
 TDD (202) 208-2420

 HOTLINE
1849 C Street, N.W.
Mail Stop 5341
Washingion, D.C. 20240
